TRULINCS 48591066 - ZINNER, EDWARD - Unit: LOR-C-A

FROM: 48591066
TO:
SUBJECT: APPENDIX
DATE: 09/05/2021 11:01:02 AM
APPENDIX-1
LIST OF APPENDICES

APPENDICE A

• Decision of Third Circuit No. 20-2961 April 22,2021

APPENDICE B

Decision of the District Court, December 16,2020

APPENDICE C

Decision of the District Court, February 6,1998 (Relevant pages only)

APPENDICE D

Decision of the District Court, July 24, 2019
APPENDIX-2 (Separate Cover)

APPENDICE E

- FAX TRANSMISSION FROM AUSA PAMELA FOA TO SIDNEY FREIDLER
MARCH 6,1995 (Key evidence concealed relevant to all decisions
referenced above)

APPENDICE F —

- District Court's Docket Record (relevant pages only)

‘-i

BLD-160

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-2961

UNITED STATES OF AMERICA
v.
EDWARD M. ZINNER,
Appellant
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Criminal Action No. 95-cr-00048-001)
District Judge: Honorable John R. Padova
Submitted on the Government’s Motion for Summary Affinnance
Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
„ „
April 22,2021
Before: AMBRO, SHWARTZ, and PORTER, Circuit Judges

JUDGMENT

Coufl SSSSSterfSSS."

ISW.DisHci -

Ap nsraicn consideration whereof, it is now hereby
entere^September 16, 2Q2<u2Ste thereby is 32^“* °f **DiStriCt C0Urt
All of the above in
accordance with the opinion of this Court.

ATTEST:
s/ Patricia S. Dodszuweit
Clerk
DATED:

IA

a

w
►-

April 27,2021

m

•^
&•o
x

*
• -*

CertSpH^P
f>y*aiid issued in lieu
of a fonstel taaJGflate •A*
od 05/19/21
Teste:

Clerk, U.S. Court of Appeals for the Third Circuit

UNITED STATES OF AMERICA v. EDWARD M. ZINNER
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF PENNSYLVANIA
2020 U.S. Dist. LEXIS 169108
CRIMINAL ACTION NO. 95-48
September 16, 2020, Decided
September 16,2020, Filed
Editorial Information: Subsequent History
Affirmed by, Motion denied by, As moot United States v. Zinner. 2021 U.S. App. LEXIS 12450, 2021 WL
1626518 (3d Cir. Pa., Apr. 27, 2021)
Editorial Information: Prior History
United States v. Zinner, 1996 U.S. Dist. LEXIS 16053 (E.D. Pa., Oct. 24, 1996)
Counsel

{2020 U.S. Dist. LEXIS 1}For RESOURCE BANK, Interested Party:
JOHN A. WETZEL, LEAD ATTORNEY, WETZEL GAGLIARDI & FETTER LLC, WEST
CHESTER, PA; JONATHAN L. HAUSER, LEAD ATTORNEY, CHRISTIAN, BARTON,
EPPS, ETAL, VIRGINIA BEACH, VA.
For EDWIN B. LINDSLEY, JR., Interested Party: JOHN
ROGERS CARROLL, LEAD ATTORNEY, CARROLL & CARROLL, PHILA, PA.
CINDY B. ZINNER. Interested Party, Pro se, JOHNSTOWN,
PA.
For USA, Plaintiff: JUSTIN T. ASHENFELTER, LEAD
U S- ATT0RNEY'S OFFICE, EDPA, PHILADELPHIA, PA; PAMELA FOA

a^Rn^°SerSA^.U S-

ATT0RNEY' PHILA' PA'' SETH WEBER' LEAD

Judges: John R. Padova, United States District Judge.
Opinion
Opinion by:

John R. Padova
Opinion

MEMORANDUM
Padova, J.
Court6hashed

PriS0n6r who pled 9“"*to racketeering offenses in this

I. BACKGROUND

A. No. 95-48-01, 1996 U.S. Dist.
lyccases

1

Apf*/uc> i oe -

48591-66

LEXIS 16053,1996 WL 628585, at *7 (E.D. Pa. Oct. 25,1996). That decision was affirmed on
appeal to the United States Court of Appeals for the Third Circuit on August 13,1997. (See ECF No.
186.)
While the appeal was pending, Zinner filed a Motion pursuant to Rule 60(b) in which he (1) repeated
some claims raised in his § 2255 Motion, allegedly based on his receiving new evidence, and (2)
raised two new claims. In the first new claim, he argued that his guilty plea was not valid because it
was coerced by the prosecutorial threats to indict members of his family if he did not plead guilty, in
the second, he asserted that newly discovered evidence revealed a secret and corrupt agreement
between his attorney and prosecutors that his attorney would not be indicted for fraud if he convinced
Zinner to plead guilty in this case. In 1998, after a full evidentiary hearing, the Rule 60(b) motion
was denied because Zinner failed to prove any secret and corrupt deal. United States v. Zinner.
Crim. A. No. 95-48,1998 WL 57522, at *1 (E.D. Pa. Feb. 9,1998). Thereafter the Third Circuit
denied Zinner a certificate of appealability. (See ECF No. 237.) Zinner filed another Rule 60(b)
Motion on September 1,1999. (ECF No. 252.) That Motion was denied in an Order entered on
October 21, 1999.(2020 U.S. Dist. LEXIS 3} (ECF No. 257.)
Some twenty years later, on February 27, 2019, Zinner filed another Motion, this time pursuant to
Rule 60(d). (ECF No. 259.) Zinner again sought to set aside the judgments denying relief pursuant to
both § 2255 and 60(b), and to dismiss the 1995 indictment against him with prejudice, based on the
alleged secret deal between his counsel and prosecutors. (See id. at 104-05.)2 Specifically, he
claimed that prosecutors misled the Court in both the § 2255 and Rule 60(b) proceedings based on
alleged new evidence that the Government had drafted but not filed a motion to disqualify his
co-Defendant's counsel due to that counsel’s representation of Petitioner in earlier proceedings. The
Court concluded that, to the extent that the Motion was not a second or successive § 2255 habeas
petition, over which there would be no jurisdiction, the Motion failed on its merits because it like his
earlier Motion, was "based primarily on conjecture, speculation, and reinterpretation of old evidence
had nnrnutfnShTr^i^0
that h'f exP|anation>s the only one that makes sense," and Zinner
had not put forth the clear, unequivocal and convincing evidence' of a fraud on the court thatis

ss? ?ES;^r;"2ir-sr 1“*>■ *>»■»»^«*■»

"authoVr^efartu^mltted W‘.h ‘h! 1999 & 2019 Rule 60 motions is irrefutable" and the Court
founda^fllt■7/d,n‘®ntiona|;y deceptive 'opinions'... where KNOWN perjury is
“Su^STa^dSh°LhiS “nViHi0Hn in ,he ,0nT1 °f taX liens’ which he “"‘ends h^has
successfully litigated and had removed; dismissal as a named plaintiff in a civil stock fraud case
SS? 9™rt°neyf dama9?®: eviction from his apartment; denial of voting rights, Second Amendment
nghts, and professional licensure; and the seizure of a tax refund. (Id. at 12-13 ) The balance of the
pn^S^tf2020 US' D?‘- LEX'S 5> argumen,s and factual assertions
and tteby ‘?6 C°Urt 'nvolvin9 his right to conflict-free counsel
and the alleged conspiracy between his counsel, counsel for co-defendants, and prosecutors.
II. WRIT OF ERROR CORAM NOBIS - STANDARD
The All Wnts Act, 28 U.S.C. § 1651, is a residual source of authority to issue writs in exceptional

lyccases

2

48591066

circumstances. Pa. Bureau ofCorr. v. U.S. Marshals Serv., 474 U.S. 34,43,106 S. Ct. 355, 88 L.
Ed. 2d 189 (1985). A petition for error coram nobis "is used to attack allegedly invalid convictions
which have continuing consequences, when the petitioner has served his sentence and is no longer
'in custody* for purposes of 28 U.S.C. § 2255." United States v. Stoneman, 870 F.2d 102, 105-06 (3d
Cir. 1989); see United States v. DeJesus, Crim. No. 96-434, 2000 U.S. Dist. LEXIS 1780, 2000 WL
217520, at *2 (E.D. Pa. Feb. 11, 2000) (noting that "the writ of coram nobis is available only where
the defendant has completely served his sentence"). "Use of the writ is appropriate to correct errors
for which there was no remedy available at the time of trial and where 'sound reasons' exist for
failing to seek relief earlier." Stoneman, 870 F.2d at 106 (quoting United States v. Morgan, 346 U.S.
502, 512, 74 S. Ct. 247, 98 L. Ed. 248 (1954)). "Only where there are errors of fact of the most
fundamental kind, that is, such as to render the proceeding itself irregular and invalid, can redress be
had." United States v. Cariola, 323 F.2d 180,184 (3d Cir. 1963) (quotation omitted). "The error must
go to the jurisdiction of the trial court, thus rendering the trial itself invalid." Stoneman, 870 F.2d at
106. As the{2020 U.S. Dist. LEXIS 6} Stoneman Court stated, BCoram nobis is an extraordinary
remedy, and a court's jurisdiction to grant relief is of limited scope." id. (citing Canola, 323 F.2d at
184). "The interest in finality of judgments dictates that the standard for a successful collateral attack
on a conviction be more stringent than [either] the standard applicable on a direct appeal,'" or the
standard on a petitioner seeking habeas relief under § 2255. Id. (quoting United States v. Gross, 614
F.2d 365, 368 (3d Cir. 1980)) (citing United States v. Osser, 864 F.2d 1056, 1060-61 (3d Cir 1988V
and United States v. Keogh, 391 F.2d 138,148 (2d Cir. 1968)).
Stated succinctly, coram nobis relief has five essential prerequisites. A petitioner must show that he
or she "(1) is no longer in custody; (2) suffers continuing consequences from the purportedly invalid
conviction; (3) provides sound reasons for failing to seek relief earlier (4) had no available remedy
J?.
and (5) asserted errors) of a fundamental kind." Ragbir v. United States, 950 F.3d
??20^ (citations omitted); see also United States v. Babalola, 248 F. App'x 409,412
105-06 2007^ Mend0Za * Unit6d States' 690 F*3d 157> 159 W Cir. 2012); Stoneman, 870 F.2d at
III. WRIT OF ERROR CORAM NOBIS - ANALYSIS

SHSS—Sir

andUh£hS'fa!!{20f20 UhS' DL8t LEXIS ^liti9at8d the lssue of Aether there was a fundamental error
commnotoJrefef3' Sh ° mak'nS *he nec6SS3rv showin3 °f exceptional circumsta
nces warranting

that the Government allegedly prepared but never filed. (See ECF No. 268-2 at 1-30) The document
was, however, attached to Zinneris prior Rule 60(d) Motion (see ECF No 259 at l^iesTanT
teS!!m°"y' ab0U' Zimer"s relati°"shiP ^ Phedlerwasintrodured during the
evidentiary heanng on his Rule 60(b) Motion, see Zinner. 1998 WL 57522, at ‘9 after whictfthe
*a'led t0 credl* dinner's allegations. Id. at *13. In any event, the allegation about an unfiled
m0t'iHn Inv.0lving a co-defendant's attorney is not an error that goes to the Court's
jurisdiction that would render Zinneris conviction invalid. See Stoneman, 870 F.2d at 106.
Finally, while Zhuier alleges{2020 U.S. Dist LEXIS 8} specific continuing
lyccases

consequences of his

3

48591068

conviction, none of them fall within the ambit of continuing consequences sufficient to obtain the
requested writ. Zinner concedes that the tax liens he cites have been successfully litigated and
removed; thus they cannot qualify. His conclusory allegations that he was dismissal as a named
plaintiff in a civil stock fraud case seeking money damages and cannot get professional licensure are
wholly unsupported. Moreover, financial consequences - such as tax liens, stock losses, eviction
from one's apartment, inability to obtain chosen employment, and lost tax refunds - do not appear to
qualify as the type of serious continuing consequences sufficient to attain the extraordinary grant of
the writ. See, e.g., Rodriguez v. United States, 730 F. App'x 39, 45 (2d Cir. 2018) (remanding for
determination whether guilty plea, allegedly resulting from ineffective assistance of counsel, could be
the basis for denaturalization proceedings and thus satisfy continuing consequence prong); Williams
v. United States, 858 F.3d 708, 715 (1st Cir. 2017) (prong was met where inability to obtain lawful
permanent resident status because the underlying facts of conviction involving a false claim of
United States citizenship, and being subject to deportation at any moment, qualified as
continuing{2020 U.S. Dist. LEXIS 9} consequence); George v. Black, 732 F.2d 108, 110 (8th Cir.
1984) (noting that the possibility of confinement pursuant to civil commitment proceedings after the
expiration of a criminal sentence is a collateral consequence). Finally, Zinner's claim concerning his
voting rights and Second Amendment rights are also insufficient grounds to grant the extraordinary
remedy of a writ of coram nobis because Zinner has suffered other convictions that also affect these
rights.
IV. MOTION FOR RECUSAL
Zinner has also filed a recusal motion alleging bias. The gist of the allegation is that the Court
rejected his evidence of counsels' conflicts and determined not to grant Zinner the relief he sought in
his prior Motions. (See ECF No. 269 at 2, 4-6.)
The threshold issue is whether, under 28 U.S.C. § 455, recusal is required due to bias. Section
455(b)(1) provides that a judge shall "disqualify himself... [wjhere he has a personal bias or
prejudice concerning a party, or personal knowledge of disputed evidentiary facts concerning the
proceeding ...." 28 U.S.C. § 455(b)(1). The United States Supreme Court defines "bias and
prejudice" as a "favorable or unfavorable disposition or opinion that is somehow wrongful or
inappropriate, either because it is undeserved, or because it rests upon knowledge that the
subjectf20*) U.S. Dist. LEXIS 10) ought not to possess,... or because it is excessive in degree .
. Liteky v. United States, 510 U.S. 540, 550, 114 S. Ct. 1147, 127 L. Ed. 2d 474 (1994).
I!ltwUe.KremtC0UrtrlIeld mat while an °extraiudicial source" is the "only common basis" for
estabhshmg disqualifying bias or prejudice," it is not the exclusive basis to establish such bias or
prejudice. Id. at 551. [JJudicial rulings alone almost never constitute a valid basis for a bias or
partiality recusal motion" because "they cannot possibly show reliance upon an extrajudicial source! 1
and can only in the rarest circumstances evidence the degree of favoritism or antagonism required
, when no etfrajudicial source is involved." Id. at 555. "[Opinions formed by the judge on thebasis of
fn?a wJnr
°ft 6
Proceedin9s*or of Prior proceedings, do not constitute a basis
for a bias or partiality motion unless they display a deep-seated favoritism or antagonism that would
make fair judgment impossible." Id. Similarly, judicial remarks cannot ordinarily be the basis for bias
and prejudice but may be if they reveal an opinion that derives from an extrajudicial source; and
they will do so if they reveal such a high degree of favoritism or antagonism as to make fair
lTP£S?leV ld‘,n LJteky<2020 u s‘ Dist- LEXIS
the Court ultimately held that "[a]ll of
theQ grounds [that petitioner set forth] are inadequate" because "(tjhey consist of judicial rulings,
atriSfl1013 adrnm,strat,on efforts- and ordinary admonishments ... to counsel and to witnesses." Id.

lyccases

4

4859lOnG

The Third Circuit has likewise stated that "'judicial rulings alone almost never constitute a valid basis
for a bias or partiality motion.'" Robinson v. Horizon Blue Cross Blue Shield of N.J., 674 F. App'x 174,
179 (3d. Cir. 2017) (quoting Uteky, 610 U.S. at 555); see also United States v. Wecht, 484 F.3d 194,
213-21 (3d. Cir. 2007) (denying a writ of mandamus ordering the judge's disqualification when
evidence of bias based on remarks, practices, and rulings). Indeed, "'a party's displeasure with legal
rulings does not form an adequate basis for recusal'" because <np]n the event that the court's Q
rulings may be in error, they are subject to review on appeal.'" Rashid v. Ortiz, Crim. A. No.ln re TMI
Litig. 08-493, Civ. A. No. 15-274, 2016 U.S. Dist LEXIS 181234, 2016 WL 7626712, at *3 (E.D. Pa.
June 20, 2016) (alterations in original) (first quoting Securacomm Consulting, Inc. v. Securacom Inc.,
224 F.3d 273, 278 (3d Cir. 2000); then quoting In re TMI Ufa.. 193 F.3d 613, 728-29 (3d Cir. 1999)).
Zinner's recusal argument fails to demonstrate that the Court's prior Orders have "such a high degree
of favoritism or antagonism as to make fair judgement impossible." Uteky, 510 U.S. at 555. There is
also no basis to hold that prior rulings were based on an "extrajudicial source" or reached the high
"degree of favoritism or antagonism [that is] required . .{2020 U.S. Dist. LEXIS 12) . when no
extrajudicial source is involved." Id. at 555 (noting the degree of favoritism or antagonism is reached
in only the rarest circumstances). Merely alleging that a court has reached adverse decisions without
demonstrating the required "degree of favoritism or antagonism" is insufficient for recusal. To the
extent Zinner disagrees with the Court's rulings, an appeal, not recusal, is not the appropriate
avenue for a remedy. See Rashid, 2016 U.S. Dist. LEXIS 181234,2016 WL 7626721, at *3.
Accordingly, to the extent that Zinner moves for recusal under 28 U.S.C. § 144, the Motion is denied
on the merits, but it is also denied because of procedural deficiencies. Specifically, Zinner failed to
provide a certificate of good faith signed by "counsel of record." 28 U.S.C. § 144; see also
Heimbecker v. 555Assocs., Civ. A. No. 01-6140, 2003 U.S. Dist. LEXIS 6636, 2003 WL 21652182,
at *4 (E.D. Pa. Mar. 26, 2003) (stating that "the absence of a certificate of counsel is a sufficient
basis upon which a motion for recusal pursuant to 28 U.S.C. § 144 may be denied" (citation
omitted)). Where, as here, a movant is proceeding pro se, any member of the bar may sign the
certificate. See, e.g., United States v. Rankin, 1 F. Supp. 2d 445, 450 (E.D. Pa. 1998) (citation
omitted). However, Zinner has submitted no signed-certificate.
V. CONCLUSION
are deni^.AnappSe'** ^

^ N°biS and M°,i0n f°r ReCUSal

BY THE COURT:{2020 U.S. Dist. LEXIS 13)
Is! John R. Padova, J.
John R. Padova, J.
ORDER
l62h daX°f September- 2020' uP°n consideration of Defendant Edward M. Zinner's
Motion for Writ of Error Coram Nobis (ECF No. 268) and Motion for Removal/Recusal (ECF No.
follows™ f°r thS reaS°nS ^forth in the accomPany'n9 Memorandum, IT IS HEREBY ORDERED as
1. The Motion for Writ of Error Coram Nobis is DENIED.
2. The Motion for Removal/Recusal is DENIED.
BY THE COURT:
lyccases

5

48591066

/$/ John R. Padova, J.
John R. Padova, J.
Footnotes

1
Zinner has served the sentence imposed by this Court. He is in federal custody due to a subsequent
conviction in the United States District Court for the Eastern District of Virginia involving a violation
of 18 U.S.C. § 1957. See United States v. Zinnetr. Crim No. 17-3 (E.D. Va.). Following the entry of a
guilty plea, he was sentenced on April 12, 2018 to a term of incarceration of 120 months, followed by
supervised release of 3 years.
2
The Court adopts the pagination supplied by the CM/ECF docketing system.

lyccases

6

48591060

1. Secret Condition of the Plea Agreement
Defendant claims there was a secret and illegal deal between himself and the government to the
effect that the government would not indict his wife, mother, or brother if he pleaded guilty. He
evidently wishes to argue that the agreement was illegal under Unft&d Ststos v. Brody, 397 U.S. 742,
90 S. Ct 1463,25 L Ed. 2d 747 (1970), on the ground that the government allegedly threatened to
indict his family members if he did not plead guilty. The following evidence was presented on the
issue.
Prior to his hearing, Defendant called his former attorney, Albert Mezzaroba, from prison. His notes
of the tape of the telephone conversation state the following: "Question proposed from Zinner Do
you recall the prosecutor agreeing not to indict my mother If I would plead guilty? Mezzaroba
Response: YES, why their [sic] not going after your Mother, are they?" (Deft.'s Mem. In Supp. of
Sanctions, Ex. 16.)
At the hearing, Defendant asked Mezzaroba about this conversation, and Mezzaroba elaborated as
follows:
There was an agreement by the government, although not made part of the plea, there was an
agreement that after Ed fZJnnarl pled guilty that the case basically stopped there.
He was basically the boss behind everything, and they wouldn't indict his wife, his mother and his
brother, who were also minor players in the company.(Tr. of 11/12/97 at 79.) Later in
Mezzaroba's testimony, Defendant raised the issue again:
Q Was the agreement (not to indict Defendant's mother] inducement is... what I'm trying to
say?
A The way I recall it was that there were many aspects of the plea and the negotiation to get to
that plea. One of the benefits that was given to you by pleading was the fact that the

investigation stopped with you. Once they had you, they had no interest in your mom, your
brother or your wife.
Had you gone to trial, I still think they may have or may not have indicted.
Q So you - there in fact was an agreement not to indict my mother If I pled guilty.
A Sure.(/d. at 91). Still later in his testimony, Mezzaroba explained that the government's
(Wsrt^H^fSrthS rt CJ^6ndants family members was "a byproduct" of the plea negotiations.
It wasn't put to you that either if you don't plead guilty we're going to indict your mother, but pert
of the negotiation that you and I had discussed and it was discussed with the Government, that It
ends with you..... And that they.. .wouldn't be looking for the minor players later on down the
^fat
'*was never d,scussed whether it would appear or not in the plea agreement,..
Assistant United States Attorney Pamela Foa testified that an agreement not to indict Defendant's
family members was not a condition of his guilty plea. When Defendant asked her if she accepted
ms statement that the government had agreed, as an inducement to obtain his guilty plea that it
th^£r0t
In“* aSainst his mother or wife, she replied, "No, I do not. I certainly agree
indidme“r. 1
"ot
^
^ ^ ***t0 * furthw
2yccases

1

Bendor & C^pany. Inc., a member of the LexSsNads Group. All rights reserved, Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

48 591(565

At the hearing, the Court accepted Defendant's representation that "the Government wasn't going to
indict, or that you believed that if you pleaded guilty the Government would not indict your mother or
your wife, and that you certainly gave that favorable consideration in determining whether or not to
enter a guilty plea." (Id. at 96.) But there was no convincing evidence that the prosecutors made
threats or explicit promises not to indict Defendant’s family members. The evidence showed they let
it be Known that their primary interest was in Defendant and that they did not intend to pursue minor
players if he pled guilty; and they did not pursue minor players.
When asked what was newly discovered about this agreement or understanding, which he obviously
know about at the time of his plea, Defendant answered that he had only recently discovered that it
was illegal. Such a discovery would not qualify as newly discovered evidence under Rule 30. it is not
evidence at ail. In any case, Defendant's evidence does not show that what occurred was illegal.
Defendant argues that his plea was induced by of threats of indictment of his family members and
was therefore involuntary under Brady, which he quotes. In Brady, the Supreme Court stated:
[A] plea of guilty entered by one fully aware of the direct consequences, including the actual
value of any commitments made to him by the court, prosecutor, or his own counsel, must stand
unless induced by threats (or promises to discontinue improper harassment), misrepresentation
(including unfulfilled or unfulfillable promises), or perhaps by promises that are by their nature
Improper as having no proper relationship to the prosecutor’s business (e.g. bribes). 397 U.S.
742 at 755, 90 S. Ct. 1463 at 1472 (quotations, citation, and footnote omitted). In this case,
however, Defendant has presented no evidence bringing this case within the rule of Brady, no
evidence of a secret or improper agreement not to indict Defendant's family members based on
Threats (or promises to discontinue improper harassment)." Nor was there anything improper in
the Government's letting Defendant know that it was not interested in pursuing minor plavers in
the fraud once the kingpin pleaded guilty.
There is an Important line to be drawn between an Implicit understanding, as evidently occurred in
this case, and a bargain based on a threat. While the word "agreement" can be applied to either
Mezzarobas testimony makes dear that there was no threat when he states, "It wasn't put to you that
hjJIr U 6°n} P!ad 9ui,ty were 9°ng to indict y°ur mother, but part of the negotiation that you and I
had d'scussed and .t was discussed with the Government, that it ends with you
And that Zv

2. Secret "Deal" between Defense Counsel and Prosecutors

argued that Mezzaroba s advice that he not object to many of the facts in the Presentence

sss,

2yccases

2

48591066

fact, a corrupt deal, there is no reason to revisit issues already decided. The Court will now review
what Defendant claims is newly discovered evidence of the alleged deal.
a. Affidavit of William Turpin
Defendant included as an exhibit to his Rule 60(b) Motion a single page of what purported to be an
affidavit from government agent William Turpin. The document states in part:
20. Subjects ZINNER and WALDRON and through the American Trust, NICE, the American
Association and Equity Development Corporation are aware that they are involved in an
operation to defraud employee welfare benefit plans participants of money through the use of the
businesses and trust identified above.
21. Cooperating witnesses report that ZINNER intends to and will shortly dose the American
Plan. They report that Zlnner has caused to be prepared the cancellation letter to policyholders
to notify them of the closing of the American Plan within 30 days. In addition, he has caused
envelopes for these notices to be addressed on January 7 and 8,1995.
22. The investigation has disdosed, as well, that within the fast six months the Subjects have
transferred Trust funds for personal expenses, Induding over $ 50,000 to pay attorneys
representing the Subjects in this criminal investlgation.(Deft.'s Mot. at Ex. 60-C.) 4 Accepting this
page as part of Turpin’s affidavit, it is evidence only that the government was aware that
Defendant and Waldron had used some of the trust fund money to pay their attorneys not that
their attorneys had done anything illegal for which they might be indicted.
b. Letter of Sidney Friedler

Reference is made to our
con

ztszszssz

.....

SSSaSESSS

communication about the payment of his fees directly from the trust fund,
c. Tapes of Defendant's Conversations with Friedler 5

ssgsss-

were

admitted into evidence P 8'1"7’

2yccases
restrictions an^r^d

S dney Fnedler' were transcribed, and the transcripts

were

3
^ reSm8d' U“ « m pmlua b

485S1066

representative examples of Friedler’s statements regarding Defendant's allegations of a deal
between the government and Mezzaroba:
MR. ZINNER: Well, Mr. Waldron, Senior, has told my wife that you had a conversation with him
that Al [Mezzaroba] made a deal with my prosecutor to not be charged for taking fees out of the
trust, and part of that deal included him withdrawing from the race for City Council in
Philadelphia. Is that true?
MR. FRIEDLER: No.
The only question she ever raised, [prosecutor] Pam Foa, was that there were fees paid out of
the trust to defend the trust.
The only thing I remember is that Pam or Seth Weber, when they reviewed all the accounting
records; correct?
Raised the issue that legal fees had in fact been paid out of the trust.
[Al] never told me he was threatened with indictment I'm telling you, I was never told he was
threatened with an indictment.
The only question was would that money have to be restored back to - by Al to the trust.
MR. ZINNER:... i would appreciate it If you could send me a letter... that you are aware that
there was at (east discussion between you and Al with respect to those fees and the
prosecutors.(Tr. of 4/8/96 at 2, 3,7,9,11,26.) Then, while still on the telephone with Defendant,
Friedler proceeded to dictate the letter, which is reproduced in section (b), supra. Both the letter
and the transcript show that Friedler was aware that prosecutors had raised with Mezzaroba the
issue of payment of legal fees from the trust fund and the tapes show that there was a question
whether Mezzaroba would have to repay the fees. They do not show or suggest that there was a
deal between Mezzaroba and Foa whereby Foa agreed not to indict Mezzaroba in exchange for
Mezzaroba's delivering Defendant's guilty plea. 6
Another section of Friedler*s tape relates to a conversation he had with Mark Waldron, Sr., about
which Waldron testified at the hearing. The portions of the transcript relating to that conversation will
be discussed below, along with Waldron's testimony.
d. Testimony of Mark Waldron, Sr.
Mark Waldron, Sr., the father of co-defendant Mark Waldron, Jr., signed an affidavit and then
testified at the hearing as to conversations that occurred before his son pieaded guHty. Mezzaroba
had agreed to drive Friedler and Waldron, Sr. to the naval station. Waldron testified that Mezzaroba
spent the whole journey of about fifteen or twenty minutes trying to convince him that his son should
plead guilty. (Id. at 11.) He stated that Mezzaroba "indicated that at this time the prosecutors had
dropped some charges and that Mark might get a lesser penalty if he pleaded guilty right now, that
was the sort of logic he was giving to me. And I In turn couldn't think of any reason why my son
should plead guilty to something that he hadn't done." 7 (Tr. of 12/30/97 at 13.) He went on to state:

2yccases

4

48591066

When we arrived at the place where Mr. Friedler was staying, he and Mr. Mezzaroba spoke
together for a half an hour or so and I was waiting in the other room. And when Mr. Mezzaroba
left Mr. Friedler came up to me and said to me, he said - I'll answer as exactly as I can - "he
really worked on you, didn't he?" I said, yeah, I don't understand that, he's supposed to be one of
our guys. He said, well, the prosecutors found out that he had take $ 80,000 from the trust and
that was illegal, that's what I think he said, that was illegal or that was not legal. And he said now
he's got to do everything they tell him or he's going to be in big-time trouble. And then he said
they've really got him by the - well, where the hair is short, thafs the way he said ft. And that
was the first time that I had heard or knew of an arrangement(/d.)
Friedler's account of what he told Waldron in his telephone conversation with Zjnner about
Mezzaroba's payment from trust funds differs from Waldron's account. He stated:
Waldo's father was concerned that his son would take a plea and go to jail.
I said to him, "Look. You know, it looks like If we get this thing done, he will not go to jail at this
point,...” He had manifested some concern about whether he should plead guilty, and I have
some recollection of Al saying to him he should plead guilty. He should do this, and the old man
was all pissed off.
Al mentioned to me that they had questioned him or something in regard to legal fees, and he
was talking, and I said [to Waldron] "Gee, he's all concerned about that," but I never said he was
going to be indicted. I never said that he was dropping out of the race, because I dont think at
that time I knew.
MR. ZINNER: What he said was that you told him that Ai had made a deal with the prosecutors
to drop out of the race in return for not being indicted,
MR. FRIEDLER: No. I'm telling you, I dont remember that.(Tr. of 4/8/97 at 33-34.)
There may be an inconsistency between what Waldron testified that Friedler told him about
fFnr1d‘er‘® statements on tape ast0 what he knew about Mezzaroba. While the Court
combined^tlftheTnm deal.detween Mezzaroba and the prosecutors, and his statements on tape,
beerf proved^
ev,dence’ “"pels the Court to reach the conclusion that no secret dealhas
e. Testimony of Albert Mezzaroba

prosecutors and Mezzaroba. An example of their exchange appears below:
Se^l^^oid y?U, 6Ver ?aVe any discussions
Mr. Weber or Ms. Foe with respect to
ke^pTim?
9 P d y0U fr°m the trust fund as to whether or not V°u would be allowed to
had, ® discussion. Like I said the last time I was here, there were discussions where

2yccases

5

485S1066

come after at least myself for the attorneys' fees at any time. [p. 36-37.]
My understanding of this fee, as well as any other fee I take in a criminal case, it's possibly
subject to forfeiture at the very worst-case scenario. And that was the question of the illegality
and the possibility that I was under a criminal investigation.
Q... When you learned on January 13th, '95 that the prosecutors were interested in the fees did
you have any discussions with any representative of the government about any possible criminal
liability to you?
A No.

Q. But you did have discussions with respect to criminal liability to me?
A It wasn't - from what I recall in discussing the entire case, not just the attorneys' fees, the
attorneys' fees were a very small portion of the case. What the Government was alleging, that
you had - one of the things you were doing with the trust money was paying your own bills
including attorneys' fees.(Tr. of 12/30/97 at 36-37, 39.)
Ue?aJ0ba
that he and Fried,er were doin9 both civil work for the trust and criminal work for
the defendants, and that it was proper that they get some of their fees from the trust He further
testified that the government had never asked for any of the fees back and that he had never
returned any.
f. Testimony of Pamela Foa

"there were no other agreements other than what is in writing and certainly no threats of prosecution

sifs.S'SSsrSi.
she

g. Summary

^

2yccases
restrictions and remand

b8tW8e" ‘*°S8CutW8 and

K

6

^

U“ * Ws P'Dduc' is6ubtsctl0the

48591OSS

Defendant offers a few other bits of newly discovered evidence: for example, two versions of the
government’s sentencing memorandum in Mezzaroba’s files, one which accepted for a reduction for
acceptance of responsibility and a later one which challenged it Defendant asked Pamela Foa if
after the first sentencing memorandum was submitted to the Court, she had any discussions with’
Mezzaroba about submitting a second memorandum. She stated that she did not recall, but that her
practice would have been to call him before filing the second one to alert him so he could prepare to
respond to the government’s allegations. (Tr. of 11/12/97 at 170.) For Defendant, the only possible
explanation for Mezzaroba's possession of the two documents is that he had a secret deal, with the
prosecutors, but one would draw that conclusion only if one were already convinced. Defendant’s
oonvictions, however, cannot substitute for evidence, and there is no newly discovered evidence that
• 5Slroba-ie,,ve!?d Defer>dant's 9U% P,ea in exchange for the government’s agreement not to
indict him. The evidence Defendant has presented falls far short of sustaining his accusation of a
secret and corrupt deal between his attorney and the prosecutors.
IV. CONCLUSION
^n“®9ain' Defendant has prevailed upon this Court to re-examine his case, this time on a Dromise
l ^IdlSC0V8rT1 evi.dence that would retire the Court to grant him relief from judgment Most of

sr™users:

01

^□ncTin^TTi iS baS6d p™arily on conjecture, speculetion, and reinterpretation of old
His

offense level for obstruction of justice andH^n.

90vernment s attempt to increase Defendant's

^ntencThl^ot ^sddoUble^he^on^hTshould1hav^oott^6 9°v®rnment' He Sieves that the
acceptance of responsibility/^, ^
was denied a reduction for
a reduction for acceptanceof responsibility h« iIIhh 2 ° fa5' h s attomey had estimated that, with
whereas he was given ov“r 5
.^ST38nSB2,*0 2 1/2to3 years in P^n,
this outcome and wants it changed^ Howevlrtt^and dlsappolnted with
Defendant's plea was not coeiS
«1* evidence to support his claims is simply not there.
because he demonstrated that he had not tnjiua^Ce*!S19er than.be or his attorney expected
not His Motion for Relief from Judgmentwill be denhiT reSP°ns,bi,ity for his crim8S and ** still has
An appropriate Order follows.
ORDER
Relief from Judgment^nd^RequSoJ HMri^P^5'^^0 °f Defendant’s Pro Se Motion for
No. 159), the government’s
—-9,0 831(1

Fed. R. Civ. Pr. (Doc.
n- <S HEREBYbRDERED SaUheMobon ^De"0"3*

John R. Padova, J.

2yccases
© 2017 Matthew Bender & Company. Inc.,
restrictions and terms

7
Use of this product is subject to the

48591ORR

Footnotes

2yccases

8
. Use of this product is subject to the

48591066

AND NOW, this 6th day of February, 1998, upon consideration of Defendant's Pro Se Motion for
Relief from Judgment and Request for Hearing Pursuant to Rule 60(b)(1 )(3) Fed. R. Civ. Pr. (Doc.
No. 159), the government's responses (Doc. Nos. 166,178) and other supplemental submissions of
the parties pertaining to said Motion, IT IS HEREBY ORDERED that the Motion is DENIED.
BY THE COURT:
John R. Padova, J.
Footnotes
tf-

1

.

The caption of the Motion is a bit confusing. There is no Rule 60(b)(1)(3). Given the statement in the
opening paragraph of the Motion, quoted in the text, the Court assumes Defendant means to bring
this Motion under subsections (b)(2) (newiy discovered evidence) and (b)(3) (fraud,
misrepresentation or other misconduct). However, because he is acting pro se, the Court will
consider his evidence under any appropriate section of Rule 60(b).
2
Hearings were held on Defendant's Motion on November 12 and December 30,1997. At the second
hearing, additional evidence was presented that was not available at the first hearing. The Court will
refer to both, collectively, as Defendant's hearing.
3
At his sentencing, Defendant stated under oath that the factual basis for his guilty plea, as set out in
the Presentence Investigation Report ("PSP), was true, with certain minor corrections. At the hearing
on the instant Motion, however, he maintained that the PSI was false, while at the same time
refusing to acknowledge that he had lied under oath when he told this Court at sentencing that the
factual basis for his plea was true. Defendant appeared to be claiming that he merely said what his
attorney told him to say, although he did not want to, and therefore the statements, while untrue,
were not lies on his part - an imaginative but unconvincing argument. Defendant again takes
incompatible positions: the facts presented in the PSI were false, but Defendant did not lie under
oath when he stated at sentencing that they were true. (Tr. of 11/12/97 at 33-35.)
The page from the affidavit, which came from Mezzaroba's files, has various handwritten notations
to wh!ch Defendant seemed to attach importance. He asked Mezzaroba about them, but Mezzaroba
testified he did not know who had written them. (Tr. of 11/12/97 at 82-84.)
5
Sidney pjedter was subpoenaed to appear at the hearing on December 30,1997, but was unable to
appear for medical reasons.

6

Part of the conversation with Frfedler suggests that Defendant may previously have known that the
government was aware that Zinner paid Mezzaroba's fees from the trust, and that the evidence is
therefore not newly discovered, but the conversation is not conclusive. (Tr. of 4/8/97 at 4-5.)
Defendant contended that Mezzaroba was trying to persuade Mark Waldron, Sr. that his son should
plead guilty as part of the corrupt deal he had with the prosecutors, but Mezzaroba explained that he

2yccases

j2a)

48591066

considered a guilty plea in Waldron's best interests. He stated he was advising Waldron as wefr as
Defendant because, at that time, It was not detarminadaxacfly which attomAy
client. (Tr. of 12/30/97 at 53-55.)
kjU-BMJ

pad<*A

fhis

uJ**

fad'**1'

p«M
id

i

. w-

y

a*

<7
W,

e*c'.x*

lb

y
M£ vf
J

\J

f*

X ,j
jh
fu

C*"

-

1

2yccases
© 2018 Matthew Bender & Com
restrictions and terms an.

^ “ Use of this product is subject to the

4#^Q1 nc" ■:-

IN THE UNITED SI ATES DISTRICT COURT
FOR THE EASTERN DI STRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA

CRIMINAL ACTION

v.
EDWARD ZINNER

NO. 95-48
ORDER

AND NOW, this 24th day of July, 20 19, upon consideration of pro se Petitioner Edward
Zinner’s ‘‘Motion for Relief from Judgmenl Pursuant to Rule 60(d)(3)-Federal Rules of Civil Procedure for Fraud Upon the Court and Conspiracy to Deprive Citizen of Civil Rights by
Obstructing Constitutionally Mandated Jud cial Functions in Violation of 18 U.S.C. § 241”
(Docket No. 259), the Government’s opposit on thereto, and Petitioner’s Reply, IT IS HEREBY
ORDERED that Petitioner’s Motion is DENIED.1

Petitioner pled guilty in 1995 to ail Indictment that charged him with racketeering in
fraudulen] beneflts schemi! and, “ a result, we sentenced him to 68 month! in
prison, in 1996, we denied his motion for habeas relief pursuant to 28 U S C § 2255. See

mn?in
T/0rfeitUre', ^ 1998, after arU evidemiaiy hearin& we denied the Rule 60(b)
^/Q/g„ w°nC Uf‘ng’ “ter aha that Petitioner jiad failed to prove any secret and corrupt deal. (See
6d *? Ex‘ 210 Pet’r’s Mo1- at 17-28-) Now, twenty-one years later, Petitio^
“stant independent action puisuant to Federal Rule of Civil Procedure 60(d)(3)
5Sf aSJ-de T Jud®“ents deny‘,|g relief under both § 2255 and 60(b) and dismiss the
995 Indictment against him with prejudice, again because of a secret deal between his counsel
and prosecutors that he asserts perpetrated a raud on the court. (See ECF No. 259, at 104-05.)
f
. K,e
1S no* an affirmative grain of power; it merely provides that the grounds set
to^nSn^inde H f* reconsideratio 1 °fjudgments or orders do not limit a court’s power
to en“™“dePendent action to rel.eveja party from a judgment, order, or proceeding,’ ted.

Append i ce O

BY THE COURT:
John R. Padova, J.

Charles Alan Wright, Arthur R. Miller, & May Kay Kane, Federal Practice and Procedure § 2868,
at 555 (2012). Here, Petitioner appears to arjjue that we have inherent power in equity to set aside
the judgments against him pursuant to Hazei-Atlas Glass Co. v Hanfnrrl-Fmpir.. P„ 322 U S
238 (1944). The United States Court of Appeals for the Third Circuit has not definitively
determined whether “a fraud upon the court claim under Hazel-Atlas is a basis to avoid the various
gate keeping requirements provided by § 2255,” such as the prohibition on filing second or
successive habeas petitions without the Third Circuit’s approval. See. -e:e -United StatM v ____
asks, 193 F. App’x 143 144 (3d Cir. 2006^28 U.S.C. § 2255(h). Iwfer, even if the gate
Peth oner^qMefmentS m § ?255, appIy t0 this case> we conclude that at least some aspects of
Petitioner s Motion cannot be characterized as a second or successive habeas petition because
m!nntPPear "ot to collaterally attack the underlying conviction but, rather, to challenge only the

i.

s

„

the merits, but some defeet in the integrity offthe federal habeas proceedings”)

384 386-87 C\A rw nrintw *

3 F- APP x at 144 (quoting Herring v. United Statue 404 p ^

iy
Ua Ur,. ihe,hU

“»y tadulwil, denied „ f,iW „

Government had drafted but not filed a mntmtV, h;™,? 1 a u® pnmanly on new evidence that the
counsel’s representation nf
j.
squalify hjs co-Defendant’s counsel due to that
attached asT Ho Pet Vs Mot PIZZlZTTt®,
Draft Disqualification Mot!
previously undisclosed conflict of interest and
counsel and his co-Defendant’s cnnnc^i
J*

dlS<?uallf,catlon motion reveals a
m additional explanation for why both his

Government used the threat of dknnalifW
1
P ifically, Petitioner contends that the
the fees that they had iLroperivt^ken T.T ^
agreement t0 Pei™it counsel to keep
their bribery scheme. (ECF No 259 at 24 26*?'Ve/J™lent orfeit“r®
to “lure” counsel into
those he made previously to be “based nrimtrdv H
’ we find Petitioner’s arguments, like
of old evidence in an effort to convince the Coim
SPecu!atl°n’ and reinterpretation
sense.” (2/9/98 Mem at 28 1
u j ourt tha* his explanation is the only one that makes
evidence” of a fraud on the court thaHs* nJ ^ PUt for? ^<<C,ear* ^^i v°cal and convincing
Hazel-Atlas provides.” Burke 193F ADot^M^0^ ** “extraordinariiy rare relief that
M..™ for Relief Iron,

W'

2

«■

Additional material
from this filing is
available in the
Clerk's Office.

